 

 

CERTIFICATION OF COUNSEL

HOWARD E. MARTIN, III VS The State of Ohio

Petitioner Respondent, Attorney General, Dave Yost
P.O. BOX 5500 30 E. Broad Street, 17% Floor

Chillicothe, Ohio 45601 Columbus, Ohio 43215

RE: (Case # No.20-7376, HOWARD E. MARTIN, III VS. The State of Ohio)

Certification of Counsel

In the Matter of Case # No.20-7376, HOWARD E. MARTIN, III VS. The State of Ohio,
The Petitioner is filing as a party unrepresented by Counsel under Supreme Court Rule
5.1 Pro Hoc Vice and invokes jurisdiction under 28 USC § 1254 (1).

The Grounds for this matter of a Rehearing is the Violation of Petitioner’s HOWARD E.
MARTIN, III, Fifth Amendment Due Process Rights.

The Filing of this document has been hindered by the Petitioner’s Incarceration,
Prison Procedures, Covid-19 Restrictions.

Respectfully Submitted,
Howard’E. Martin, IIL

Certificate of Service ~~

The Petitioner, HOWARD E. MARTIN, III, hereby verifies that a copy of this
Certification of Counsel has been sent to the U.S. Attorney General, Merrick
Garland’s Office at the US Department of Justice, 950 Pennsylvania Avenue, NW,
Washington, DC 20530-0001. On this 6t day of July, 2021.

l JUL 20 2021

IGE OF.
IPRI ME CO

 

 

 
